INNOCENCE Executive Director
PROJECT Maddy deLone, Esq,

Deputy Executive Director
Meryl Schwartz, Esq.

Co-Founders & Special Counsel
Barry C. Scheck, Esq.
Peter J. Neufeld, Esq

October 29, 2019

Clerk of the Supreme Court of the United States
Supreme Court of the United States

1 First Street, NE

Washington, DC 20543

To the Clerk of the Supreme Court of the United States:

On behalf of the Petitioner in the above-referenced case, Rodney Reed, I am submitting this letter as
express notice that Mr. Reed will waive the 14-day time period under Rule 15.5 prior to distribution
of his Petition and the Respondent’s Brief in Opposition. While Mr. Reed does not waive his right to
file a reply, he has been informed by your office that an express waiver of this 14 day time period is
necessary so that the case can be distributed on October 30, 2019, so that the matter may be heard in
the Court’s regular conference on November 15, 2019, prior to Mr. Reed’s November 20, 2019
execution date.

Mr. Reed intends to file a reply on an expedited timeframe. Once the reply is filed electronically,
undersigned counsel will contact your office immediately so that this reply may supplement the
materials already distributed in the case.

If you have any questions regarding this matter, please do not hesitate to contact me.

Sincerely,

/

/s/ Bryce Benjet
Bryce Benjet
Sr. Staff Attorney

T 212 364.5340 F212 3645341 —innocenceproject.org + 40 Worth Street, Suite 701, New York, NY 10013
Affiliated with Benjamin N. Cardozo School of Law, Yeshiva University
